HHS/OIG, Audit -"Audit of the State of Massachusetts' Costs and Reporting of Funds Under
the Hospital Preparedness and Response to Bioterrorism Program for the Period April 1, 2002 - August
30, 2004,"(A-01-04-01504)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the State of Massachusetts' Costs and Reporting of Funds Under the Hospital Preparedness
and Response to Bioterrorism Program for the Period April 1, 2002 - August 30, 2004," (A-01-04-01504)
May 10, 2005
Complete
Text of Report is available in PDF format (249 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the State recorded and reported hospital preparedness
program funds awarded, expended, obligated, and unobligated by priority planning area in accordance
with its cooperative agreement with the Health Resources and Services Administration (HRSA).  The
State recorded and reported hospital preparedness program funds by priority planning area in accordance
with the cooperative agreement with HRSA.  We found no evidence of any unreasonable, unnecessary,
unallocable, or unallowable costs.  In addition, we found no evidence of supplanting of State
or local expenditures with Federal hospital preparedness program funds.  We noted that, as of
August 30, 2004, the State had cumulative unobligated funds totaling $8,653,180, or 65 per cent of
the $13,395858 awarded.  We recommended that the State monitor its hospital preparedness funding
to minimize unobligated fund balances and to ensure that program goals are met in a timely manner.